January 23, 2004
Report No. 04-005


The FDIC’s Strategic Alignment of Human
Capital




        EVALUATION
         eral      REPORT
Federal Deposit Insurance Corporation                                                                     Office of Audits
801 17th St. NW Washington DC, 20434                                                         Office of Inspector General



DATE:                                  January 23, 2004

MEMORANDUM TO:                         Arleas Upton Kea, Director
                                       Division of Administration

FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               Final Report Entitled The FDIC's Strategic Alignment of Human
                                       Capital (Report Number 04-005)

The subject final report is provided for your use and comment. Please refer to the Executive
Summary section for the overall results. Our evaluation of your response is incorporated
into the body of the report, and your response is included in its entirety as an appendix to the
report. Management's proposed actions for addressing our recommendations are responsive,
and the recommendations are resolved. The recommendations will remain undispositioned
and open for reporting purposes until we have determined that agreed to corrective actions
have been completed and are effective.
If you have any questions concerning the report, please contact Stephen M. Beard, Deputy
Assistant Inspector General for Audits, at (202) 416-4217, or Marshall Gentry, Director,
Corporate Evaluations, Office of Audits, at (202) 416-2919. We appreciate the courtesies
extended to the audit staff.
                                                                                                       Table of Contents




Table of Contents

EXECUTIVE SUMMARY.....................................................................................................1

BACKGROUND

    The Human Capital Concept.......................................................................................3

EVALUATION RESULTS

    The FDIC’s Strategic Human Capital Planning Framework....................................5
    The FDIC’s Human Capital Vision, Goals, and Initiatives.......................................7
    The FDIC’s Human Resources Committee .............................................................12
    The FDIC’s Process for Monitoring Implemented Human Capital Initiatives.....14

CONCLUSION AND OIG RECOMMENDAT IONS...........................................................16

CORPORATION COMMENTS AND OIG EVALUATION................................................17

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY........................................18

APPENDIX II: SUMMARY OF HUMAN CAPITAL GUIDANCE .....................................19

APPENDIX III: CORPORATION COMMENTS................................................................21

APPENDIX IV: MANAGEMENT RESPONSE TO RECOMMENDATIONS....................24


TABLES:
     Table 1: Integration of Human Capital in the FDIC’s
              Planning Documents.............................................................................7
     Table 2: The FDIC’s Human Capital Vision and Goals .....................................9
     Table 3: Alignment of Human Capital Initiatives with Goals................... 10-11
     Table 4: OIG Comparison of Human Capital Guidance .................................20

FIGURES:
     Figure 1: Steps Needed to Enhance the Human Capital
               Program.................................................................................................2
     Figure 2: The FDIC’s Strategic Human Capital Planning Framework ............5
     Figure 3: HRC Structure.....................................................................................12
                                                               Executive Summary




Executive Summary
WHY WE DID THIS   Last year, we reported that the Federal Deposit Insurance
EVALUATION        Corporation (FDIC) was implementing several initiatives and
                  organizational changes that impacted its overall human capital
                  program. Because of the significance of human capital
                  management to the success of the Corporation, we decided to
                  evaluate how the Corporation’s overall human capital planning
                  framework has evolved.
EVALUATION        The objective of this review was to assess the extent to which the
OBJECTIVE
                  FDIC has created a coherent framework of human capital policies,
                  programs, and practices designed to steer the Corporation toward
                  achieving its mission, goals, and objectives. The intent of this
                  review was to provide a high-level assessment of the
                  Corporation’s overall human capital framework. We did not
                  evaluate the success or effectiveness of specific human capital
                  initiatives. In this review, we focused on assessing whether:

                  •   The FDIC’s strategic plan establishes an agency-wide vision that
                      guides human capital planning and investment activities.
                  •   The FDIC has a system in place to continually assess and
                      improve human capital planning and investment and their impact
                      on mission accomplishment.
                  •   Managers are held accountable for effective implementation of
                      human capital plans and overall human capital management.

                  Appendix I describes our objective, scope, and methodology in more
                  detail.
WHAT WE FOUND     The FDIC’s human capital framework addresses the underlying
                  human capital concepts that the Office of Personnel Management
                  (OPM), Office of Management and Budget (OMB), and the U.S.
                  General Accounting Office (GAO) consider vital to successful
                  human capital management. Specifically:

                  •   The FDIC’s human capital vision, strategic goals, and strategic
                      objectives are integrated in the FDIC’s corporate-level
                      planning documents: the Strategic Plan, Diversity Strategic
                      Plan, and Annual Performance Plan. These plans collectively
                      provide an agency-wide vision and framework to guide the
                      FDIC’s human capital activities. Moreover, the FDIC’s 2002
                      and 2003 Corporate Performance Objectives have included a
                      number of human capital-related objectives and have been
                      significant drivers of human capital policy for the past 2 years.
                      The draft 2004 Corporate Performance Objectives also include
                      human capital-related goals.
                                                                                   Executive Summary




                 •   The Corporation’s Human Resources Committee (HRC) has
                     become a key element of the Corporation’s human capital
                     planning framework. In addition, the Chairman has appointed
                     a Chief Human Capital Officer (CHCO) who is responsible for
                     bringing a strategic approach to the FDIC’s human capital
                     initiatives and for aligning human capital policies with
                     organizational mission, goals, and outcomes. The CHCO and
                     corporate executives from the major program and support
                     divisions comprise the HRC.

                 •   Various organizational components are accountable for the
                     implementation of human capital initiatives. However, the FDIC
                     has not yet established a comprehensive blueprint and
                     performance monitoring system for evaluating the effectiveness
                     of its investment in human capital initiatives or activities .

RECOMMENDED      Figure 1 outlines important steps needed to strengthen the FDIC’s
COURSE OF        human capital program. These actions will sustain the FDIC’s
ACTION TO MEET   long-term commitment and focus on strategic human capital
FUTURE           management and will maintain transparency in the development,
CHALLENGES       implementation, and monitoring of human capital initiatives.

                 Figure 1: Steps Needed to Enhance the Human Capital Program




                                                          Strengthen
                                                         FDIC’s Human
                                                            Capital
                                                          Framework

                     Establish Feedback                                             Institutionalize elements of
                     Mechanism                                                      FDIC’s human capital
                                                                                    framework.

                     •   Re-evaluate human capital
                         strategic direction based                                  Formalize:
                         on performance results.
                                                     Document human capital         •   HRC
                                                     blueprint.                     •   CHCO role


                                                     •    Delineate roles and
                                                          responsibilities for
                                                          human capital.
                                                     •    Communicate goals and
                                                          strategies to all
                                                          stakeholders.
                                                     •    Define performance
                                                          measures.
                                                     •    Establish process for
                                                          monitoring and
                                                          reporting on the
                                                          effectiveness of human
                                                          capital initiatives.



                 Source: OIG Analysis.




                                          2
                                                                                             Background




Background
The Human Capital Concept
The human capital concept evolved as the GAO and others considered how strategic
management of human resources should be integrated with the government reforms designed
to create a framework for more businesslike and results-oriented management. For example,
the Government Performance and Results Act of 1993 created a focus on strategic planning
never before seen in the federal sector. However, GAO and other agencies began to recognize
that if the government was to continue to successfully and effectively improve its operations,
agency executives must make a conscious effort to integrate strategic human resources
management into agency planning and decision-making processes.

GAO has reported that to attain the highest level of performance and accountability, federal
agencies depend on three enablers: people, process, and technology. The most important
aspect is people because an agency’s people define its character and ability to perform. In
other words, an agency’s employees are its greatest asset – its “human capital.” The term
“human capital” was thought to be more useful than human resources because it allowed
managers to consider employees as assets to be valued rather than resources that are
consumed.

  Basic Human Capital Principles


  •   People are assets whose value can be enhanced through investment.

  •   An organization’s human capital approaches should be designed, implemented, and assessed
      by the standard of how well they help the organization achieve results and pursue its mission.

                  GAO Report Human Capital: A Self-Assessment Checklist for Agency Leaders (GAO/OCG-00-14G)




In 1999, GAO published a discussion draft (GAO/GGD-99-179) of its report, Human Capital: A
Self-Assessment Checklist for Agency Leaders (GAO/OCG-00-14G), which was issued in final
form in 2000. The self-assessment was intended to be a starting point for creating “human
capital organizations” -- agencies that focus on valuing employees and aligning their people
policies to support organizational performance goals. Although GAO has reported that
government-wide progress has been made in the human capital arena, in 2001, GAO
designated strategic human capital management as a high-risk area. Specifically, GAO
reported that agencies still lacked a consistent strategic approach to marshaling, managing, and
maintaining the human capital needed to maximize government performance and ensure
accountability. To help agencies address the human capital challenges, GAO issued an
exposure draft, A Model of Strategic Human Capital Management, dated March 2002. This
model, which builds upon GAO’s self-assessment report, is designed to help agency leaders
effectively lead and manage their people and integrate human capital considerations into daily
decision making and programs.




                                                    3
                                                                                                 Background




GAO is not the only entity promoting strategic human capital management.

•    In August 2001, the President placed human capital at the top of his management agenda.
•    In October 2001, OMB developed standards of success for each part of the President’s
     Management Agenda (PMA), including the strategic management of human capital.
•    In December 2001, OPM released a human capital scorecard to assist agencies in
     responding to human capital standards for success.
•    In October 2002, OMB and OPM, in collaboration with GAO, approved revised standards for
     success in the human capital area of the PMA. To assist agencies in responding to the
     revised PMA standards, OPM released the Human Capital Assessment and Accountability
     Framework.

The intent of this guidance is to focus agency attention on the need for strategic human capital
management as summarized below.


    Human Capital
         Strategic Alignment
                Building a Framework

    Integrating decisions about people with decisions about the results an organization is trying to
    obtain.

                   OPM Report Strategic Human Resources Management: Aligning with the Mission (September 1999)




The legislation creating the Department of Homeland Security Act, enacted in 2002, also
included provisions relating to government-wide human capital management, including the
creation of a CHCO position for major agencies and the Federal CHCO Council. One of the
functions of a CHCO is to align the agency’s human capital policies and programs to an
organization’s mission, strategic goals, and performance outcomes. Although portions of the
CHCO Act are not applicable to the FDIC, the Chairman appointed the Associate Director,
Human Resources Branch, as the FDIC’s CHCO. The FDIC’s CHCO has been participating in
federal CHCO Council meetings and plays a key role in supporting the FDIC’s HRC.




                                                        4
                                                                              Evaluation Results




Evaluation Results
The FDIC’s Strategic Human Capital Planning Framework
The FDIC has integrated its strategic human capital planning framework (see Figure 2) into the
FDIC’s overall corporate planning process. Specifically, the FDIC’s HR vision and goals for
strategic human resource management are integrated in the FDIC’s core corporate-level
planning, budgeting, and investment processes. The overall process is built upon the principle
that the Corporation’s success in achieving its strategic goals depends on the talent and
expertise of its employees.

Figure 2: The FDIC’s Strategic Human Capital Planning Framework




                                          Mission

                                          Drives

                                      FDIC Strategic
                                         Planning
                                          Process

                                      Reflected in


                                   Chairman’s Priorities

                                    Considered by


                            Human Resources Committee


                                      Resulting in
          Human Capital Investments, Including Initiatives Administered by the
                            Chief Human Capital Officer*

    FDIC’s overall framework addresses the fundamental human capital cornerstones

                           Strategic             Acquiring,            Results-
       Leadership        Human Capital          Developing,            Oriented
                           Planning            and Retaining        Organizational
                                                  Talent               Cultures

Source: Discussions with HRC members and OIG analysis of GAO guidance.

* According to FDIC’s CHCO, FDIC management is responsible for negotiating changes in workplace
conditions, compensation, and benefits with the National Treasury Employees Union and strives to
promote a fair and inclusive work environment.




                                                    5
                                                                                     Evaluation Results




Figure 2 also illustrates that the FDIC’s human capital framework addresses the key human
capital cornerstones that GAO, OPM, and OMB consider vital to successful human capital
management. Appendix II provides an overview of the guidance promulgated by these various
federal agencies and our analysis thereof. We found the underlying conceptual framework of
the guidance to be similar. We refer to human capital cornerstones promulgated by GAO in this
report because the FDIC had previously conducted an internal review of its human capital
program using GAO’s Framework for Human Capital Self-Assessment.

  Human Capital Cornerstones

  Key challenges that must be addressed to effectively manage human resources.

  þ   Leadership: An effective organization includes a senior leadership team committed to developing
      more effective ways of doing business, accomplishing results, and investing in human capital.
  þ   Strategic Human Capital Planning: Agencies must establish a clear set of organizational intents,
      including a clearly defined mission, core values, objectives, and strategies and then integrate their
      human capital approaches to support strategic and programmatic goals.
  þ   Acquiring, Developing, and Retaining Talent: Agencies must identify their current and future
      human capital needs and then create strategies for filling the gaps.
  þ   Performance Culture : Effective human capital strategies require a collaborative environment
      where a diverse set of managers, teams, and employees are empowered to accomplish
      programmatic goals.

                             GAO Exposure Draft A Model of Strategic Human Capital Management (GAO-02-373SP)




GAO has reported that these long-standing challenges will not be quickly or easily addressed
and that there is no single approach for successful human capital management. However, the
guidance from OMB, OPM, and GAO is clear -- the management of human capital must be an
integral part of mission achievement.




                                                     6
                                                                                 Evaluation Results




The FDIC’s Human Capital Vision, Goals, and Initiatives
The FDIC’s human capital vision, strategic goals, and strategic objectives are integrated in the
FDIC’s corporate-level planning documents. A discussion on human resource management
was included in the FDIC’s first strategic plan issued in 1995. Table 1 shows the documents
that collectively define the FDIC’s human capital vision and goals.

Table 1: Integration of Human Capital in the FDIC’s Planning Documents
          Document                    Overall Purpose and Human Capital Element
FDIC 2001-2006 Strategic Plan         •   Provides a framework for implementing the Corporation’s
                                          mission and guiding management in decisions about the
                                          effective use of the FDIC’s strategic resources.
                                      •   Describes workforce issues at the FDIC and specific
                                          human resource goals.
2003 Annual Performance               •   Defines what will be accomplished during the year to
Plan                                      achieve the strategic goals and objectives.
                                      •   Includes annual performance goals that address human
                                          resource management.
                                      •   Includes a section on Operational Efficiency and
                                          Effectiveness that addresses human capital management.
FDIC Strategic Plan on                •   Outlines the Corporation’s vision and mission with respect
Diversity                                 to diversity and provides a long-term blueprint for the
                                          implementation of diversity initiatives.
Annual Corporate                      •   Describe three major principles that guide the FDIC’s 2003
Performance Objectives                    Agenda: Stability, Sound Policy, and Stewardship.
                                      •   The Stewardship principle includes four Corporate
                                          Performance Objectives related to human capital.
Division of Administration’s          •   Establishes individual DOA initiatives for achieving the
(DOA) Annual Performance                  FDIC’s annual performance objectives.
Objectives                            •   Requires quarterly tracking of DOA initiatives.

Source: OIG analysis of FDIC corporate planning documents.

GAO reported that high-performance organizations define a “shared vision” – a mission, a vision
for the future, core values, goals, objectives, and strategies – and communicate that shared
vision clearly, constantly, and consistently. With regard to strategic human capital
management, an agency should develop strategies to enhance the value of its employees and
focus employees’ efforts on achieving the agency’s shared vision. The FDIC has initiated the
following human capital management efforts:

•   The FDIC has defined six core values that describe the guiding principles of corporate
    operations. These values were introduced in the FDIC’s first strategic plan in 1995 and
    have been presented consistently in subsequent plans. The values were designed to reflect
    the ideals employees should strive for as they accomplish the tasks needed to fulfill the
    mission. These core values represent one component of the FDIC’s “shared vision” – that
    is, how the FDIC has defined itself and its people.




                                                   7
                                                                                  Evaluation Results




•   The FDIC’s 1999 Strategic Plan on
    Diversity further defined the corporate        FDIC’s Core Values
    vision for human capital by focusing
    corporate attention on the need to deal
    with the increasingly diverse employee         Effectiveness: The FDIC’s reputation
                                                   rests on … its skilled and dedicated
    pool and to conserve and replenish the
                                                   workforce.
    FDIC’s institutional knowledge and             Responsiveness: The FDIC responds
    expertise in light of the number of            rapidly, innovatively, and effectively to risks
    employees eligible for retirement. The         to the financial system.
    vision statement communicated that the         Teamwork: The FDIC promotes and
    FDIC wanted to be recognized as a              reinforces a corporate perspective and
    preferred employer by the public and           challenges its employees to work
    challenged employees to respect each           cooperatively across internal and external
    other and work cooperatively and               organizational boundaries.
    effectively with one another in achieving      Fairness: The FDIC promotes a work
                                                   environment that is free of discrimination
    the Corporation’s mission. Programs were
                                                   and that values diversity and adheres to
    established in the Strategic Plan on           equal opportunity standards.
    Diversity to realize that vision, including a  Service: The FDIC’s long and continuing
    mentoring program, a Career Management         tradition of service is supported and
    Program, and expanded Expressions of           sustained by a highly skilled workforce that
    Interest. The plan also established policies   responds rapidly and successfully to
    and procedures to ensure fairness in the       changes in the financial environment.
    selection and promotion process. In a          Integrity: Integrity requires the FDIC to be,
    statement on diversity, the Chairman           among other things, honest and fair.
    stated that the Corporation’s ultimate goal                        FDIC 2001-2006 Strategic Plan
    is to weave the goals and objectives in the
    Strategic Plan on Diversity into the overall
    fabric of the FDIC’s human resources policies and practices.

•   The FDIC Chairman has stressed the need to create a culture that fosters a sense of
    corporate purpose. Specifically, the Chairman stated that it was time to actively encourage
    a greater understanding among employees as to their respective contributions to the FDIC’s
    mission. To that end, the 2002 and 2003 Corporate Performance Objectives included
    specific human capital-related objectives – such as establishing a Corporate University and
    creating a more results-oriented pay structure. The Corporate University promotes
    corporate citizenship, ensures readiness through cross-training, and helps employees do
    their jobs better. One important component of the university will be a curriculum that will
    educate employees about the FDIC and its business lines – insurance, supervision, and
    receivership management. The FDIC’s draft 2004 Corporate Performance Objectives also
    includes human capital-related initiatives such as: developing an effective pay-for-
    performance system, implementing a more integrated strategic approach to staffing and
    workforce planning, implementing strategies to increase managerial flexibilities in the
    Corporation’s human resources processes, and making continued improvements to the
    Corporate University. Table 2 summarizes the FDIC’s human capital vision and goals as
    described in its existing plans and the alignment of those goals to the fundamental human
    capital cornerstones.




                                                    8
                                                                                                                             Evaluation Results




Table 2: The FDIC’s Human Capital Vision and Goals

                                                 Building a flexible permanent workforce for the future that understands the
HR Vision


                                                 interaction among the Corporation’s three major business lines and can adapt
                                                 quickly and effectively to changing workload priorities.

                                                                                 Memorandum to All Employees from the Chief Operating Officer
                                                                                                     February 6, 2002 Leadership Conference

                                                 þ Leadership
HR Goals Described in Corporate-level Plans as




                                                    •   Providing continuous attention to the management of FDIC’s human resources to
   Related to Human Capital Cornerstones




                                                        ensure achievement of FDIC’s program goals and objectives.

                                                 þ Human Capital Strategic Planning
                                                    •   Aligning human resources with current and projected workload priorities.
                                                    •   Providing timely leadership transition.
                                                    •   Investing in training and development activities that will maintain a highly skilled
                                                        workforce capable of handling anticipated work load and responding to
                                                        unforeseen workload.

                                                 þ Acquiring, Developing, and Retaining Talent
                                                    •   Implementing programs that will make the FDIC an employer of choice.
                                                    •   Maintaining and developing a highly qualified, skilled, and diverse workforce.
                                                    •   Placing increased emphasis on recruiting well-qualified new employees.

                                                 þ Results-Oriented Organizational Culture
                                                    •   Establishing clear performance expectations and incentives to focus
                                                        organizational efforts, motivate individual employees, and reward excellence.
Key to Program
   Success




                                                                       Human Resources Committee


Source: OIG analysis of FDIC strategic plans, performance plan, corporate performance objectives, and
FDIC memoranda.

     Strategic human capital management is not new to the FDIC. More than 10 years of
     downsizing required the FDIC to begin addressing strategic human capital management.
     However, FDIC officials believe that the HRC has strengthened the FDIC’s process for creating
     corporate-centered strategies for aligning people policies with the FDIC’s mission. HRC
     members and the Chief Operating Officer (COO) stated that in the past 2 years, the HRC has
     shaped corporate policy decisions related to the administration of the 2002 corporate buyout
     program, corporate reorganization, executive pay-at-risk program, executive position
     reclassifications, and the development of the Corporate University. Table 3 illustrates how
     these and other human capital initiatives align with the FDIC’s HR goals.



                                                                                             9
                                                                                       Evaluation Results




Table 3: Alignment of Human Capital Initiatives With Goals
                                                       Overview of Key FDIC Human Capital-
     FDIC’s Human Capital Goals                                 Related Initiatives
 Leadership                                           þ    Human Resources Committee – Demonstrates
                                                           significant senior leadership commitment to strategic
 •   Providing continuous attention to the                 human capital management.
     management of FDIC’s human resources
     to ensure achievement of FDIC’s program
     goals and objectives.
                                                      þ    Designation of CHCO – Provides focal point in the
                                                           FDIC for human capital management and ensures
                                                           alignment with agency mission, goals, and outcomes.

                                                      þ    Appointment of Chief Learning Officer –Provides
                                                           direction for Corporate University activities.

 Human Capital Strategic Planning                     þ    Workforce Planning – Analyzes the workforce
                                                           needed to meet projected workload within divisions
 •   Aligning human resources with current and             and offices and integrates skills assessment.
     projected workload priorities.
                                                      þ    Corporate Readiness Planning – Identifies
 •   Providing timely leadership transition.               resources within the FDIC that could temporarily be
                                                           deployed in a period of significant and unexpected
 •   Investing in training and development                 increases in insured depository institution failures.
     activities that will maintain a highly skilled
     workforce capable of handling anticipated
     workload and responding to unforeseen
                                                      þ    Firehouse Planning – Assesses the size of the
                                                           workforce needed under a likely bank failure scenario
     workload.
                                                           to ensure that human capital is appropriately
                                                           deployed.

                                                      þ    Succession Management – Identifies the talent most
                                                           critical to the Corporation’s future and risk of talent
                                                           loss. Provides guidance to divisions and offices to
                                                           ensure that they have a workforce with the right
                                                           experience and skills to fulfill their missions.

                                                      þ    Resource Management – Provides guidance for
                                                           divisions and offices to assess whether vacant
                                                           positions continue to be justified by projected
                                                           workload and whether alternative ways to accomplish
                                                           work might eliminate the need for a position.

                                                      þ    Corporate University – Includes core training
                                                           programs for the FDIC’s three major business lines
                                                           and gives employees the opportunity for cross-training
                                                           and job rotation. Also provides an integrated
                                                           framework for addressing future leadership
                                                           development and skill requirements.


(continued on next page)




                                                      10
                                                                                     Evaluation Results




                                                      Overview of Key FDIC Human Capital-
     FDIC’s Human Capital Goals                                Related Initiatives
 Acquiring, Developing, and                        þ    Diversity Program – Establishes programs designed
 Retaining Talent                                       to make the FDIC a preferred employer.

 •   Implementing programs that will make the      þ    2003-2005 Compensation Agreement – Offers
     FDIC an employer of choice.                        competitive salaries and benefits packages.

 •   Maintaining and developing a highly           þ    Corporate University – Provides employees with a
     qualified, skilled, and diverse workforce.         broad range of professional work experiences and
                                                        career development opportunities for future
 •   Placing increased emphasis on recruiting           advancement.
     well-qualified new employees.
                                                   þ    Study of Existing FDIC Personnel Authorities and
                                                        Options to be Pursued – Will identify the human
                                                        resource flexibilities available to the FDIC, how to best
                                                        use those flexibilities, and flexibilities the FDIC should
                                                        pursue.

                                                   þ    Study of Executive Benefits Package – Will
                                                        determine how the FDIC can redefine the FDIC’s
                                                        executive benefits package to maintain
                                                        competitiveness while reducing costs.

 Results-Oriented Organizational                   þ    Executive Pay-at-Risk Program - Links executive
 Culture                                                pay increases to the accomplishment of corporate
                                                        strategic objectives.
 •   Effective human capital strategies require
     a collaborative environment where a           þ    Proposed Corporate Manager Pay-for-
     diverse set of managers, teams, and                Performance Program – Will link pay increases for
     employees are empowered to accomplish              corporate managers to performance.
     programmatic goals.
                                                   þ    Corporate Success Award Program - Annual award
 •   Agencies must first align agency leaders’          that provides for an increase in basic pay (in addition
     performance expectations with                      to the annual pay adjustment) for those employees
     organizational goals and then cascade              who are recognized as the top contributors within the
     performance expectations to other                  Corporation.
     organizational levels.
                                                   þ    Succession Management Program – As part of this
                                                        program, the FDIC plans to meet strategic talent
                                                        needs by matching executives with strong growth
                                                        potential against critical jobs and develop executives
                                                        for those jobs.

Source: OIG analysis of FDIC-provided information on human capital-related initiatives and discussions with
HRC members.

As discussed later in the report, the next step for the FDIC is to develop a process for evaluating
the effectiveness of these initiatives in achieving desired outcomes.




                                                   11
                                                                                Evaluation Results




The FDIC’s Human Resources Committee

Members of the HRC, the COO, and Chief Financial Officer (CFO) have a favorable view of the
HRC’s structure and effectiveness. The HRC has become the key ingredient in the
Corporation’s human capital framework. The HRC is responsible for developing policy
recommendations and monitoring the implementation of human resource initiatives. The CHCO
is responsible for bringing a strategic approach to human capital initiatives and aligning human
capital policies with the organizational mission, goals, and outcomes. As illustrated in Figure 3,
the HRC brings together the support functions in the DOA (Human Resources Branch/CHCO),
the Division of Finance (DOF’s corporate planning and budgeting function), and the Legal
Division with executives from the major line divisions – Division of Supervision and Consumer
Protection (DSC), Division of Resolutions and Receiverships (DRR), and Division of Insurance
and Research (DIR).

Figure 3: HRC Structure

  The FDIC’s Human Resources Committee




                                 COO, CFO, and Deputy to the Chairman



                           Deputy Director, DOA        Designated Chairman of the HRC



           LEGAL               LINE DIVISIONS          SUPPORT DIVISIONS       EXECUTIVE OFFICES



    • Deputy General       • Deputy Director,          • Associate             • Special
      Counsel                DSC                        Director, Human         Assistant to the
    • Special Assistant,   • Deputy Director,           Resources               COO
      Legal Division         DRR                        Branch; DOA; and
                                                        CHCO
                           • Deputy Director,          • Associate
                             DIR
                                                        Director,
                                                        Corporate
                                                        Planning,
                                                        Budgeting, and
                                                        Analysis Branch,
                                                        DOF



Source: OIG discussions with HRC members.

According to GAO, successful organizations integrate human capital professionals with agency
leaders and line managers to develop strategic and program plans to accomplish agency goals.
Through this joint action, agency and human capital leaders and their staffs share accountability
for successfully integrating strategic human capital approaches into the planning and decision
making of the agency. Furthermore, GAO reports that, in successful organizations, agency
leaders embrace strategic human capital management. That is, agency leaders need to see
people as vital assets to organizational success and must invest in those assets.

HRC members and FDIC’s senior-level executives believe the HRC has created a dynamic
forum for discussing and developing strategies for addressing human capital-related issues on


                                                  12
                                                                            Evaluation Results




an ongoing basis. Specifically, HRC members stated that serving on the HRC has made them
more aware of the importance of strategic human capital management to the FDIC’s success.
In addition, the CHCO stated that the HRC gives him a forum to engage in meaningful dialogue
about human resource issues with corporate officials.

In terms of operations, the HRC meets for several hours each week, but its work is not done
unilaterally. For example, since it was established, a number of work groups have supported
the HRC to help research various issues such as the Corporate University, pay-for-performance
system s, and executive job classification. According to committee members, the HRC agenda
has primarily been driven by human capital-related objectives included in the annual Corporate
Performance Objectives, operational issues, or general workforce planning matters that arise
during the year or during the annual corporate budgeting and planning process.

Generally, policy recommendations are vetted among the committee members who share
information with their respective division directors. HRC members explained that this process
allows all views to be integrated into the decision-making process. Policy recommendations
are typically developed through consensus and are generally discussed with the COO, CFO,
and Deputy to the Chairman. As members of the HRC, the Deputy General Counsel and
Associate Director, Human Resources Branch (i.e., CHCO), ensure that policy
recommendations are compliant with personnel laws and regulations and the FDIC’s labor
relations obligations.

Although current HRC members and senior corporate executives have a clear understanding of
the HRC’s role and operating practices, the HRC does not have a formal operating charter or
guidelines or a long-term plan to guide its agenda. Considering the significant role of the HRC
in developing human capital policy, the FDIC needs to take steps to institutionalize this
committee. This effort should include
defining the role of the CHCO to provide a       Institutionalize elements of the
focal point for coordinating human capital       FDIC’s human capital framework.
policies and carrying out policy decisions.

We reviewed charters of other FDIC             •   The FDIC should formalize the role of the
committees, including the Audit Committee,         HRC. This should include creating a
Supervision Appeals Review Committee,              formal committee charter and delineating
Assessment Appeals Committee, Senior               how the HRC interacts with other FDIC
Management Oversight Committee, and                organizational components.
Capital Investment Review Committee and
found the following common characteristics:    •   The FDIC should define the CHCO’s role
                                                   relative to the HRC to help ensure that
                                                   there is a focal point for human capital
•   Mission/Purpose/Guiding Principles             issues in the FDIC.
•   Functions/Scope/Responsibilities
•   Authority
•   Structure/Composition                                             OIG Recommendation No. 1

•   Meeting Schedule
•   Operating Procedures

Defining these characteristics for the HRC would provide a corporate-wide understanding of its
role and operations and help to ensure the committee becomes a lasting element of the
Corporation.




                                              13
                                                                                Evaluation Results




The FDIC’s Process for Monitoring Implemented Human
Capital Initiatives
The CHCO is responsible for bringing a strategic approach to human capital initiatives and aligning
human capital policies with the organizational mission, goals , and outcomes, and the HRC is
responsible for monitoring the implementation of the FDIC’S human capital initiatives. In addition,
various FDIC organizational components – such as the DOA, DOF, and Office of Diversity and
Economic Opportunity (ODEO) – have a significant role in monitoring the implementation and
effectiveness of human capital-related initiatives and activities . The FDIC reports it has invested
considerable resources in recruiting, developing, and maintaining a dedicated, high-performing,
and diverse workforce. However, the FDIC has not yet established a comprehensive process for
monitoring and evaluating the effectiveness of its human capital initiatives or activities in achieving
program goals.

According to OPM, OMB, and GAO guidance, human capital professionals and agency line
managers should share the accountability for successfully integrating strategic human capital
approaches into the
planning and decision-     Monitoring Performance
making process of the
agency. All human
capital policies and       Agencies must pay attention to whether their investment in human
practices should be        capital programs pays off. A focus on results keeps agencies from
designed, implemented,     wasting money.
and assessed by the
                                                            White House OPM Project Director
standard of how well they
                                                               for Human Capital Performance
help the agency pursue
its shared vision.

Consistent with the Chairman’s overall vision for creating a high-performing, results-oriented
FDIC culture, the HRC’s challenge is to adopt human capital practices to create a flexible
workforce with an adequate skill mix to address diverse challenges created by changes in the
economy and the financial services industry and by advancing technology. As previously
discussed, the HRC has implemented several initiatives designed to achieve this vision. The
HRC chairman explained that the HRC’s efforts are measured through the Corporate
Performance Objectives reporting process, which includes quarterly reports to the FDIC’s
Chairman. Additionally, executives’ annual pay increases are directly linked to the
accomplishment of these objectives. To date, the success of the HRC has been measured by
its ability to implement human capital initiatives, not by the effectiveness of these initiatives over
time.

Other organizational components also monitor the implementation of human capital-related
initiatives. For example, the ODEO is responsible for monitoring and reporting on the FDIC’s
progress in meeting its diversity goals. The ODEO issues quarterly progress reports and an
annual performance report. Additionally, DOF monitors data related to the FDIC’s overall
workforce for budgeting and planning purposes , while the DOA tracks division-specific goals
related to human capital as part of its own annual performance plan. Further, a strategic plan is
being developed for the Corporate University.




                                                  14
                                                                                Evaluation Results




The HRC has contemplated the need for developing a human capital plan, but most HRC
members do not view the plan as necessary. In fact, before the HRC was established, FDIC
human resource professionals conducted a human capital s elf-assessment based on GAO’s
report, Human Capital: A Self-Assessment Checklist for Agency Leaders (GAO/OCG-00-14G).
The FDIC used the results of that assessment to draft a Human Resources Strategic Plan.
However, the plan was never finalized. Generally, officials commented that the existence of the
HRC mitigated the need for a plan because issues are being addressed in “real time.” In addition,
officials believe that the FDIC’s human capital goals are clearly defined in other corporate planning
documents, and specific human
capital objectives for achieving         Develop a human capital blueprint, and
those goals are included in annual       establish a feedback mechanism.
corporate performance objectives.
Accordingly, most HRC members            • Summarize the FDIC’s human capital vision, goals,
indicated that a separate human              and strategies.
capital plan would be duplicative.       • Define the FDIC’s strategic human capital
Nonetheless, a few members                   management key organization components and their
stated that it might be helpful to           roles and responsibilities.
create a longer-term roadmap.            •   Communicate goals and strategies to all stakeholders.
                                        •   Define performance measures.
Although elements of the FDIC’s         •   Assign responsibility for monitoring and reporting on
                                            the effectiveness of human capital initiatives.
human capital framework are
                                         •  Establish process for re-evaluating human capital
included in existing corporate
                                            strategic direction based on performance results.
strategic planning documents, the
lack of a comprehensive blueprint                                          OIG Recommendation No. 2
increases the risk of program
redundancy, inconsistency, and
lack of accountability. Accordingly, we believe developing a comprehensive human capital
blueprint would strengthen the FDIC’s overall human capital program. Such a blueprint would not
only help to cohesively document existing elements of the FDIC’s human capital planning
framework, but would also help the FDIC to assign responsibility for evaluating the effectiveness
and return on investment of human capital-related initiatives and activities. The blueprint would
also serve another important purpose – communicating the FDIC’s human capital goals and
strategies so that all stakeholders have an understanding of the FDIC’s human capital program .




                                                 15
                                                     Conclusion and OIG Recommendations




Conclusion and OIG Recommendations
According to GAO, high-performing organizations treat strategic human capital management as
a fundamental part of effective overall management. Strategic human capital management is
not new to the FDIC. Downsizing the organization for more than a decade required the FDIC to
begin addressing strategic human capital management. Specifically, the FDIC has done the
following:

•   Integrated human resource management with its core planning process and plans.
•   Established the HRC and designated a CHCO to develop policy recommendations and
    monitor the implementation of the Corporation’s human capital initiatives. The work of the
    HRC demonstrates the commitment of the FDIC executives to effectively manage FDIC
    human resources.
•   Aligned specific human capital initiatives with the FDIC’s HR goals.

These steps demonstrate that the FDIC understands the fundamental human capital concept of
effective “people management” as key to organizational success. The GAO has reported that
committed, sustained, and inspired leadership and persistent attention on behalf of all interested
parties will be essential if lasting changes are to be made and the human capital-related
challenges are to be successfully addressed. We made the following recommendations to the
Director, DOA, intended to help ensure that the FDIC’s progress in strategic human capital
management becomes institutionalized as a way of doing business.

•   Sustaining long-term commitment and focus. The FDIC should create a formal HRC
    charter and operating guidelines similar to those of other FDIC committees. Doing so would
    help ensure that the value and work of this committee is sustained by future leaders and
    understood by FDIC stakeholders. Considering the importance of the HRC in the FDIC’s
    human capital framework, creating the charter and guidelines would be a logical step in the
    evolution of the program. The role of the CHCO should also be clearly defined to establish
    a focal point for policies and initiatives and ensure coordinated human capital strategies.

•   Maintaining transparency in the development, implementation, and monitoring of
    human capital initiatives. The FDIC should develop a coherent human capital blueprint
    that comprehensively describes the FDIC’s human capital framework and establishes a
    process for agency leaders to systematically monitor the alignment and success of these
    initiatives relative to the goals. Such a blueprint would be beneficial in: (1) promoting a
    corporate-wide understanding of the human capital program, (2) clearly delineating roles
    and responsibilities, and (3) establishing a tool for assessing progress toward program
    goals.




                                                16
                                              Corporation Comments and OIG Evaluation




Corporation Comments and OIG
Evaluation
On January 21, 2004, the Director, DOA provided a written response to the draft report. The
response is presented in Appendix III of this report. DOA concurred with our recommendations
and plans to complete corrective actions by December 31, 2004. The following summarizes
DOA’s response.

(1)    The FDIC should create a formal HRC charter and operating guidelines similar to
       those of other FDIC committees.

DOA agreed with the OIG’s recommendation to create a charter for the HRC. DOA stated that it
believed a charter would ensure the continued functioning of the HRC as an effective and
efficient administrative and leadership change agent for the FDIC into the future. DOA plans to
create a charter and operating guidelines for the HRC by June 30, 2004.

Management’s planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that the agreed-to
corrective action has been completed and is effective.

(2)    The FDIC should develop a coherent human capital blueprint that
       comprehensively describes the FDIC’s human capital framework and establishes
       a process for agency leaders to systematically monitor the alignment and success
       of these initiatives relative to the goals.

DOA agreed with the OIG’s recommendation to develop a human capital blueprint after it
finalizes the HRC charter and operating guidelines. DOA stated that it did not necessarily agree
with the OIG’s conclusion that not having a human capital blueprint increased the risk for the
lack of program accountability. Nonetheless, DOA stated that a human capital blueprint with
performance measures would be helpful to monitor whether human resource programs are
successful. DOA plans to develop a human capital blueprint by December 31, 2004.

Management’s planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that the agreed-to
corrective action has been completed and is effective.

A summary table showing management’s responses to our recommendations is presented in
Appendix IV.




                                              17
                                                                                Appendix I
                                                         Objective, Scope, and Methodology




Objective, Scope, and Methodology
The objective of this review was to assess the extent to which the FDIC has created a coherent
framework of human capital policies, programs, and practices designed to steer the corporation
toward achieving its shared vision. The intent of this review was to provide a high-level
assessment of the Corporation’s overall human capital framework and develop suggestions for
continued improvement. Specifically, we focused on assessing whether:

•   The FDIC’s strategic plan establishes an agency-wide vision that guides human capital
    planning and investment activities.

•   The FDIC has a system in place to continually assess and improve human capital planning and
    investment and their impact on mission accomplishment.

•   Managers are held accountable for effective implementation of human capital plans and overall
    human capital management.

To accomplish our objective, we did the following:

•   Reviewed relevant human capital guidance from the GAO, OPM, and the OMB to gain an
    understanding of human capital-related concepts.
•   Reviewed the FDIC’s strategic and annual performance plans, FDIC’s Diversity Strategic
    Plan and annual reports, the annual Corporate Performance Objectives for 2002 and 2003,
    and draft 2004 Corporate Performance Objectives to identify the FDIC’s human capital
    vision, goals, and strategic objectives.
•   Interviewed FDIC’s COO; CFO; Deputy to the Chairman; Director, DOA; and HRC members
    to discuss their roles in and views of the FDIC’s human capital framework.
•   Reviewed HRC meeting minutes to further our understanding of the FDIC’s human capital
    framework and initiatives.

As part of our high-level assessment of the Corporation’s overall human capital framework, we
also obtained and reviewed information on FDIC human capital-related initiatives, programs,
and practices to ascertain the alignment of the initiatives with the FDIC’s human capital goals
and vision. We primarily focused on initiatives or programs that the HRC has initiated since it
was established 2 years ago. However, we recognize that a framework of human capital
policies existed before the establishment of the HRC. Accordingly, our scope included other
programs, such as the Diversity program, which the FDIC established over 4 years ago. Our
review of initiatives did not include testing the effectiveness of these initiatives in obtaining
program results.

We conducted our evaluation from July to November 2003 in accordance with generally
accepted government auditing standards.




                                                18
                                                                         Appendix II
                                                   Summary of Human Capital Guidance




Summary of Human Capital Guidance
The GAO reported that the government’s approach to managing its people – its human capital –
is the critical link in reforming and modernizing the federal government’s practices. In its
January 2001 High Risk Series update, GAO reported that many agencies were experiencing
serious human capital challenges, such as skill imbalances, succession planning challenges,
outdated performance management systems, and understaffing. The GAO concluded that the
combined effects of these challenges posed a risk to the ability of agencies to efficiently,
economically, and effectively accomplish their missions.

In recent years, the OPM, OMB, and GAO have published similar guidance for federal agencies
to address these human capital challenges. Our comparison of these standards is shown in
Table 4 on the following page.




                                             19
                                                                                                                  Appendix II
                                                                                            Summary of Human Capital Guidance


Table 4: OIG Comparison of Human Capital Guidance
                                             Workforce         Leadership and     Results-Oriented
OPM STANDARDS            Strategic          Planning and         Knowledge         Performance         Accountability          Talent
                         Alignment          Deployment          Management            Culture
                                                                                                                          Acquiring,
GAO                    Strategic Human Capital Planning          Leadership         Results-Oriented Organizational     Developing, and
CORNERSTONES                                                                                    Culture                 Retaining Talent



                     Agency human         No skill            Agency has a        Agency differentiates between high    Agency sustains
                     capital is aligned   gaps/deficiencies   citizen-centered    and low performers through            a high-
OMB STANDARDS        with mission,        exist in mission-   organizational      appropriate incentive and reward.     performance
                     goals, and           critical            structure that is                                         workforce that
FOR SUCCESS
                     organizational       occupations.        delayered and                                             continually
                     objectives.                              oriented toward                                           improves
                                                              performing the                                            productivity;
                                                              mission.                                                  strategically uses
                                                                                                                        existing
                                                                                                                        personnel
                                                                                                                        flexibilities, tools,
                                                                                                                        and technology;
                                                                                                                        and implements
                                                                                                                        effective
                                                                                                                        succession
                                                                                                                        plans.

                                                                                                                        Changes in
                                                                                                                        agency
                                                                                                                        workforce skill
                                                                                                                        mix and
                                                                                                                        organizational
                                                                                                                        structure reflect
                                                                                                                        increased
                                                                                                                        emphasis on
                                                                                                                        e-government
                                                                                                                        and competitive
                                                                                                                        sourcing.




                                                                 20
                            Appendix III
                       Corporation Comments


CORPORATION COMMENTS
               Appendix III
     Corporatio n Comments




22
               Appendix III
     Corporatio n Comments




23
                                                                                                                     Appendix IV
                                                                                       Management’s Response to Recommendations




          MANAGEMENT’S RESPONSE TO RECOMMENDATIONS
This table presents the management response that has been made on the recommendations in our report and the status of the
recommendations as of the date of report issuance. The information in this table is based on management’s written response to our
report.

                                                                                                                                         Open
                                                                                                                a                   b
 Rec.                                                              Expected             Monetary     Resolved:      Dispositioned:         or
Number        Corrective Action: Taken or Planned Status         Completion Date        Benefits     Yes or No        Yes or No         Closedc

      1      FDIC will create a charter and operating           June 30, 2004             N/A            Yes               No               Open
             guidelines for the HRC.


      2      FDIC will develop a human capital blueprint.       December 31, 2004         N/A            Yes               No               Open

a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered
                  resolved as long as management provides an amount.
b
    Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary
    benefits achieved through implementation identified. The OIG is responsible for determining whether the documentation provided by
    management is adequate to disposition the recommendation.

c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                           24
